No. 19-963

 

IN THE

Supreme Court of the Anited States

HENRY SCHEIN, INC., PETITIONER
ve

ARCHER AND WHITE SALES, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE RESPONDENT IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,772 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 2, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
